                                                               Issue Date
                                                                       February 9, 2012
                                                               Audit Report Number
                                                                      2012-PH-0004




TO:        Deborah C. Holston, Acting Deputy Assistant Secretary for Single Family
            Housing, HU

           //signed//
FROM:      John P. Buck, Regional Inspector General for Audit, Philadelphia Region,
             3AGA

SUBJECT:   HUD Controls Did Not Always Ensure That Home Equity Conversion
            Mortgage Loan Borrowers Complied With Program Residency
            Requirements

                                 HIGHLIGHTS

 What We Audited and Why

           We audited the U.S. Department of Housing and Urban Development’s (HUD)
           oversight of its Home Equity Conversion Mortgage (HECM) program based on
           our annual audit plan and our strategic goal to improve the integrity of HUD’s
           single-family programs. This is the first of two reports that we plan to issue on
           HUD’s oversight of the program. Our objective was to determine whether HUD’s
           controls effectively ensured that HECM loan borrowers complied with program
           residency requirements.

 What We Found


           HUD controls did not always ensure that HECM loan borrowers complied with
           program residency requirements. Our review disclosed that 33 borrowers had
           more than 1 HECM loan and that they falsely certified to principal residency for
           properties that they were not living in. As a result, 33 loans insured under the
           HECM program were ineligible for insurance and should be declared in default
           and due and payable to reduce the potential risk of loss of an estimated $3.9
           million to HUD’s Federal Housing Administration (FHA) insurance fund.


What We Recommend

           We recommend that HUD direct the servicing lenders to identify which property
           is the HECM loan borrower’s principal residence for each of the 33 cases, declare
           the loan for the other property in default, and declare it due and payable, thereby
           putting an estimated $3.9 million to better use. We also recommend that HUD
           perform quality assurance tests at least annually to ensure that edits in its FHA
           Connection system are effective in preventing the approval and generation of
           FHA case numbers for borrowers with existing loans.

           For each recommendation in the body of the report without a management
           decision, please respond and provide status reports in accordance with HUD
           Handbook 2000.06, REV-4. Please furnish us copies of any correspondence or
           directives issued because of the audit.

Auditee’s Response


           We provided a discussion draft audit report to HUD on December 12, 2011, and
           discussed it with HUD at an exit conference on January 3, 2012. HUD provided
           written comments on the draft audit report on January 24, 2012. HUD agreed
           with the audit report. The complete text of HUD’s response can be found in
           appendix B of this report.




                                            2
                           TABLE OF CONTENTS

Background and Objective                                                     4

Results of Audit
      Finding: HUD Controls Did Not Always Ensure That HECM Loan Borrowers   5
      Complied With Program Residency Requirements

Scope and Methodology                                                        8

Internal Controls                                                            10

Appendixes
   A. Schedule of Funds To Be Put to Better Use                              12
   B. Auditee Comments                                                       13
   C. Breakdown of Estimated Funds To Be Put to Better Use                   15




                                           3
                      BACKGROUND AND OBJECTIVE

The U.S. Department of Housing and Urban Development (HUD) provides reverse mortgage
insurance through the Home Equity Conversion Mortgage (HECM) program.

The purpose of a HECM loan is to enable elderly homeowners to convert the equity in their
homes to monthly streams of income or credit lines. To be eligible for a HECM loan, the
borrower must be 62 years of age or older, own the property outright or have a small mortgage
balance, occupy the property as a principal residence, not be delinquent on any Federal debt, and
participate in a consumer information session given by a HUD-approved HECM counselor. The
maximum amount (principal limit) the borrower or borrowers can receive is based on the age of
the youngest borrower, interest rate, mortgage insurance premium (MIP), and value of their
home or HUD’s loan limits, whichever is less. The loan is secured by the home’s equity.
Eligible properties include single-family homes or one- to four-unit homes with one unit
occupied by the borrower, HUD-approved condominiums, and manufactured homes that meet
Federal Housing Administration (FHA) requirements.

The borrower is not required to repay the loan as long as the borrower continues to occupy the
home as a principal residence, maintains the property, and pays the property taxes and the
mortgage insurance premiums. The loan agreement defines “principal residence” as the dwelling
where the borrower maintains his or her permanent place of abode and typically spends the
majority of the calendar year. A person may have only one principal residence at any one time.
The borrower must certify to principal residency initially at closing and annually thereafter.

Servicing lenders are responsible for ensuring that borrowers meet the program requirements,
including the annual certification of principal residency. The mortgage note contains a clause
stipulating that the lender may require immediate payment in full of all outstanding principal and
accrued interest, upon approval of an authorized representative of the HUD Secretary, if the
property ceases to be the principal residence of the borrower for reasons other than death and the
property is not the principal residence of at least one other borrower.

Our audit objective was to determine whether HUD’s controls effectively ensured that HECM
loan borrowers complied with program residency requirements.




                                                4
                                          RESULTS OF AUDIT

Finding: HUD Controls Did Not Always Ensure That HECM Loan
Borrowers Complied With Program Residency Requirements

HECM loan borrowers did not always comply with program residency requirements. Twenty-
seven loan borrowers were principal borrowers on 2 HECM loans, clearly indicating a violation
of the program residency requirements. Also, six borrowers, who were both a principal borrower
on one HECM loan and a coborrower on another, were not residing in the property associated
with the loan of which they were the principal borrower. Therefore, 33 loans insured under the
HECM program were ineligible. The violations occurred because HUD did not have adequate
controls to prevent the borrowers from obtaining multiple loans. In June 2009, HUD
implemented improvements that should help prevent borrowers from obtaining multiple loans.
However, since it did not have the proper controls in place before 2009, approximately $3.9
million in FHA funds is potentially at risk for the 33 ineligible loans.



    33 HECM Loan Borrowers
    Violated Program Residency
    Requirements


                    According to HECM program regulations at 24 CFR (Code of Federal
                    Regulations) 206.39, the property associated with the loan must be the principal
                    residence of each borrower at closing. Also, regulations at 24 CFR 206.211
                    require servicing lenders to at least annually determine whether the property
                    associated with a HECM loan is the principal residence of at least one borrower
                    and require borrowers to certify that the property associated with the HECM loan
                    is their principal residence. Further, regulations at 24 CFR 206.27 state that the
                    mortgage balance will be due and payable in full if the property ceases to be the
                    principal residence of a borrower for reasons other than death and the property is
                    not the principal residence of at least one other borrower.

                    We analyzed HUD data on HECM loans and identified 27 borrowers with
                    potentially 2 loans each. Based on documents provided by servicing lenders, we
                    confirmed that the borrowers had 2 loans in all 27 cases. In 22 of the 27 cases,
                    the borrowers provided annual certifications1 that both properties were their
                    principal residence, clearly indicating a violation of the program residency
                    requirements. In the remaining five cases, the lenders did not provide adequate
                    documentation to show that the borrowers complied with the annual certification


1
    We requested the borrowers’ annual certifications for the last 3 years from the applicable servicing lenders.


                                                             5
                         requirements or that they complied with the principal residency requirement (see
                         appendix C).

                         In addition, six borrowers, who were both a principal borrower on one HECM
                         loan and a coborrower on another, were not residing in the property associated
                         with the loan of which they were the principal borrower, thus violating the
                         principal residency requirement.

HUD H   HUD Lacked Adequate Controls
        but Has Made Improvements


                         HUD’s FHA Connection system2 allowed lenders to generate and obtain approval
                         of FHA case numbers for borrowers with existing HECM loans because the
                         system did not have the necessary edits or controls in place to identify those
                         borrowers. As a result, 33 borrowers violated the program residency
                         requirements as discussed above.

                         Of the 33 cases identified, 31 loans were closed before June 2009. HUD officials
                         said that beginning in June 2009, edits were implemented in the FHA Connection
                         system that should help prevent borrowers from improperly obtaining multiple
                         loans. According to the officials, the FHA Connection system was programmed
                         to send a warning alert message if a lender enters a potential borrower’s name and
                         Social Security number into the system and the data entered match an existing
                         case number. The lender cannot obtain a case number until the alert message is
                         resolved with HUD. We did not test the new edits; however, 2 of the 33 loans
                         closed after HUD implemented the edits. Therefore, HUD should implement a
                         process to conduct periodic quality assurance reviews to ensure that the edits and
                         controls are working properly. Such quality assurance reviews will allow HUD to
                         determine the effectiveness of the edits implemented and should help prevent
                         borrowers from improperly obtaining multiple HECM loans.

            About $3.9 Million in FHA
            Funds Is Potentially at Risk


                         Because the FHA Connection system lacked adequate controls to prevent
                         borrowers from improperly obtaining more than 1 HECM loan, 33 existing
                         borrowers were able to obtain at least 1 additional HECM loan. These borrowers
                         falsely certified to principal residency and violated the program residency
                         requirements; therefore, 33 HECM loans were ineligible, and an estimated $3.9
                         million in FHA funds is potentially at risk for the loans. In accordance with
                         program regulations, the ineligible loans should be identified and immediately
                         declared in default and declared due and payable.

        2
         The FHA Connection system provides FHA-approved lenders and business partners with direct, secure, online
        access to HUD computer systems.


                                                              6
Conclusion



             HUD’s implementation of edits in its FHA Connection system should help
             prevent borrowers from improperly obtaining multiple HECM loans by ensuring
             that FHA case numbers are not generated and approved for existing borrowers;
             however, HUD needs to perform periodic quality assurance reviews to ensure that
             the system edits are effective. Also, for each of the 33 cases, HUD needs to direct
             the applicable servicing lenders to identify the property that is the principal
             residence of the borrower, declare the loan for the other property in default, and
             declare it due and payable. Doing so will reduce the potential risk of loss of an
             estimated $3.9 million to HUD’s FHA insurance fund.

Recommendations



             We recommend that the Acting Deputy Assistant Secretary for Single Family
             Housing

             1A.    Direct the applicable servicing lenders for each of the 33 cases to identify
                    which property is the HECM loan borrower’s principal residence, declare
                    the loan for the other property in default, and declare it due and payable,
                    thereby putting $3,960,192 to better use.

             1B.    Perform quality assurance tests at least annually to ensure that edits in its
                    FHA Connection system are effective in preventing the approval and
                    generation of FHA case numbers for borrowers with existing loans.




                                               7
                                SCOPE AND METHODOLOGY

We conducted the audit from March to October 2011 at our office in Richmond, VA. The audit
covered the period January 2001 through December 2010 but was expanded as necessary to
accomplish our objective. We relied in part on computer-processed data in HUD’s Single
Family Data Warehouse.3 Although we did not perform a detailed assessment of the reliability
of data, we performed a minimal level of testing and found the data to be adequate for our
purposes. The testing entailed matching information obtained from the Single Family Data
Warehouse to hardcopy documents provided by servicing lenders.

To accomplish our objective, we reviewed

           Relevant background information on HECM loans and applicable regulations,

           HECM program requirements,

           Loan information on the HECM borrowers provided by the servicing lenders,

           Lexis Nexis4 information on the HECM borrowers, and

           Information in HUD’s Single Family Data Warehouse.

We interviewed HUD’s single-family program staff, including loan servicing personnel, and
servicing lender officials.

We obtained all available HECM loan level data from HUD’s Single Family Data Warehouse
system as of February 2011. As of that date, the system contained information on 515,000
HECM loans. We used Audit Command Language (ACL) software to filter the universe of
515,000 loans by borrower’s Social Security number and identified 27 borrowers with 2 HECM
loans. We then obtained the loan information from the applicable servicing lenders and verified
that the borrowers had two loans. We also used ACL to filter the universe of HECM loans to
determine whether there were borrowers who were both a principal borrower and a coborrower
on HECM loans. We identified 12 borrowers who were the principal borrower on one HECM
loan and a coborrower on another. Using the LexisNexis public database, we determined the
borrowers’ current residences and verified the information by obtaining the related loan
documentation from the applicable servicing lenders. Based on the information obtained from
the servicing lenders, six borrowers, who were the principal borrower on one loan and a
coborrower on another, were not living in the property associated with the loan of which they
were the principal borrower. For these 6 borrowers and the 27 discussed above, the information
we obtained from the servicing lenders and reviewed included annual recertification documents
for the last 3 years, HUD-1forms, certification of counseling letters, and Deeds of Trust.


3
    HUD’s Single Family Data Warehouse system contains information on FHA-insured mortgages.
4
    The LexisNexis database is an online resource that provides information on legal and public records.


                                                           8
In all, there were 33 cases in which the borrower had 2 HECM loans. In each case, one loan was
ineligible and should not have been insured. Determining and declaring the ineligible loans in
default and making them due and payable will reduce the risk of loss to HUD’s FHA insurance
fund because HUD will be relieved of potential future claim liabilities related to the undisbursed
loan amounts. We estimated this savings to HUD (funds to be put to better use) to be about $3.9
million.

We calculated the $3.9 million in estimated funds to be put to better use by first determining the
difference between the principal limit5 and the loan balance6 for each loan. These differences
represented the estimated undisbursed principal for each loan. We then totaled the lower
undisbursed principal amount for each of the 33 cases to determine the estimated funds to be put
to better use. We used the lower amounts to obtain a conservative estimate of the savings to
HUD since the servicing lenders are yet to determine which loans were ineligible. A breakdown
of the loans questioned for each of the 33 cases is provided in appendix C of this report.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective(s). We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




5
 Principal limit represents the maximum approved loan amount as reflected on Deeds of Trust related to the loans.
6
 Loan balances were obtained from the Single Family Data Warehouse as of November 2011, and include
advances, repayments, payoffs, fees, interest, and mortgage insurance premiums.


                                                        9
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

       Effectiveness and efficiency of operations,
       Reliability of financial reporting, and
       Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


               We determined that the following internal controls were relevant to our audit
               objective:

                      Program operations – Policies and procedures that management has
                      implemented to reasonably ensure that the HECM program meets its
                      objectives.

                      Validity and reliability of data – Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports for the HECM program.

                      Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that program
                      participants comply with HECM program laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.




                                                 10
Significant Deficiency


            Based on our review, we believe that the following item is a significant deficiency:

                HUD did not have adequate controls in place to prevent HECM loan
                borrowers from improperly obtaining multiple loans.




                                             11
                                    APPENDIXES

Appendix A

     SCHEDULE OF FUNDS TO BE PUT TO BETTER USE

                           Recommendation          Funds to be put
                                  number           to better use 1/
                                          1A           $3,960,192



1/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. In this instance, implementation of our recommendation
     to identify the ineligible loans, declare them in default, and declare them due and payable
     will reduce the risk of loss to the FHA insurance fund because HUD will be relieved of
     potential future claim liabilities related to undisbursed loan amounts.




                                             12
Appendix B

             AUDITEE COMMENTS




                    13
14
Appendix C

    BREAKDOWN OF ESTIMATED FUNDS TO BE PUT TO
                   BETTER USE


                 Borrower’s
      FHA case   certification   Principal    Loan balance    Undisbursed
 #     number       status        limit (a)        (b)       principal (a-b)
 1 249-5157251         1         $544,185        $261,954       $282,231
 2 241-8390501         1          472,500         200,161        272,339
 3 251-3170411         1          469,343         208,650        260,693
 4 044-4328357         1          544,185         322,702        221,483
 5 048-4539620         2          472,500         256,941        215,559
 6 095-0212669         2          442,500         261,469        181,031
 7 521-6462158         1          252,000           88,629       163,371
 8 093-6201487         1          352,500         198,648        153,852
 9 023-2925857         1          285,000         134,784        150,216
10 052-4608822         1          208,500           62,376       146,124
11 093-6245702         1          240,000         112,721        127,279
12 263-3935656         1          250,500         124,672        125,828
13 541-7649808         1          234,000         110,953        123,047
14 561-8440954         1          226,500         118,716        107,784
15 493-8610158         3          193,500           86,673       106,827
16 431-4184335         1          237,000         133,494        103,506
17 371-3804182         1          225,000         125,103         99,897
18 331-1159284         1          255,000         156,000         99,000
19 581-2721861         1          219,000         121,836         97,164
20 105-3502089         1          174,000           76,936        97,064
21 105-3284381         1          169,500           74,973        94,527
22 431-4361161         1          217,500         123,628         93,872
23 061-2856346         4          237,000         157,652         79,348
24 541-5610783         5          144,000           75,158        68,842
25 095-0646658         5          132,000           65,644        66,356
26 493-8715380         5          123,000           56,720        66,280
27 581-2840181         1          141,000           78,891        62,109
28 441-7959208         1          123,000           61,338        61,662
29 441-8505726         1          124,500           69,093        55,407
30 381-8023026         1          127,500           72,222        55,278
31 022-1807263         2          127,500           80,328        47,172
32 182-0897748         1            75,000          35,145        39,855
33 501-7347714         1          134,000           98,811        35,189
Total                                                         $3,960,192



                                    15
Borrower’s Certification Status Key7

1= Borrower annually certified to principal residency for both loans.
2= Servicing lender did not provide any annual borrower certifications for this loan; however,
the borrower annually certified to principal residency for the other loan.
3= Servicing lender provided the borrower’s most recent annual certification for this loan;
however, the certification was inadequate because it did not include the property address. The
borrower did not certify to principal residency on the other loan; however, as a condition of
obtaining the loans, the borrower certified to principal residency at loan closing.
4= Borrower did not annually certify to principal residency for either loan. However, as a
condition of obtaining the loans, the borrower certified to principal residency at loan closing.
5= Borrower was a principal on one loan and a coborrower on another, and annually certified to
principal residency on both loans.




7
    See footnote 1.



                                               16
